              COORDINATING AND TRACKING OF
             COMMERCIAL CONTAINERS IN KOREA


Report No. D-2001-149                      June 22, 2001



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
MCT                   Movement Control Team
MTMC                  Military Traffic Management Command
USFK                  U.S. Forces Korea
                       Office of the Inspector General, DoD
Report No. D-2001-149                                                      June 22, 2001
   (Project No. D2000LH-0131)

                  Coordinating and Tracking of Commercial
                            Containers in Korea

                                Executive Summary

Introduction. This is one in a series of reports being issued by the Inspector General,
DoD, to address the effectiveness of the supply and distribution system. The Deputy
Under Secretary of Defense (Supply Chain Integration) expressed concern about
whether the supply and distribution system was effective in delivering cargo to
customers overseas. This audit discusses the coordinating and tracking of commercial
containers within the Republic of Korea (the theater).

Objectives. Our overall objective was to assess the effectiveness of the DoD
distribution and transportation system in supporting the DoD strategic goal of reducing
logistics response time, as it relates to customers located outside the continental United
States. The specific objective for this portion of the review was to assess the movement
of commercial containers in the theater.

Results. U.S. Forces Korea did not adequately coordinate and track the movement of
commercial containers in the theater. Instead, the 25th Transportation Battalion relied
on the 837th Transportation Battalion to perform those duties, even though the
837th Transportation Battalion was not responsible for performing the duties. As a
result, adequate controls did not exist to prevent DoD from incurring about $742,000 in
unnecessary detention charges for containers during a recent 2-year period. For details
of the audit results, see the Finding section of the report. See Appendix A for details
on the management control program as it relates to coordinating and tracking movement
of commercial containers within the theater.

Summary of Recommendations. We recommend that the Commander, U.S. Forces
Korea, implement container management requirements and procedures; coordinate
container management with Military Traffic Management Command; implement a
system to coordinate and track movement of commercial containers that arrive in the
theater; monitor unnecessary detention charges; and initiate a search that will identify
ownership of each container found during the audit.

Management Comments. The U.S. Forces Korea concurred and stated that it had
initiated a complete review and update of U.S. Forces Korea Regulation 55-355,
“Korea Traffic Management.” Also, in coordination with Military Traffic Management
Command, U.S. Forces Korea will conduct an analysis of the commercial container
tracking process to define its responsibilities and minimize DoD detention charges.
Further, subsequent searches have identified commercial containers at other locations in
the Republic of Korea and those containers will be returned to the rightful owner with
settlement of any outstanding detention. The Military Traffic Management Command
concurred and stated it will work with the U.S. Forces Korea in tracking commercial
containers. A discussion of the management comments is in the Finding section of the
report, and the complete text is in the Management Comments section.

Audit Response. The U.S. Forces Korea comments are fully responsive. We
commend U.S. Forces Korea and Military Traffic Management Command for their
prompt and comprehensive actions and their cooperation to resolve the tracking of
commercial containers.




                                           ii
Table of Contents

Executive Summary                                    i


Introduction
     Background                                      1
     Objective                                       2

Finding
     Coordinating and Tracking Container Movement    3

Appendixes
     A. Audit Process
         Scope and Methodology                       9
         Management Control Program Review          10
         Prior Coverage                             10
     B. Glossary                                    11
     C. Report Distribution                         12

Management Comments
     U.S. Forces Korea                              15
     Military Traffic Management Command            17
Background
    The Deputy Under Secretary of Defense (Supply Chain Integration) expressed
    concern about whether the supply and distribution system was effective in
    delivering cargo to customers overseas. This audit discusses the coordinating
    and tracking of commercial containers in the Republic of Korea (the theater).
    See the Glossary at Appendix B for definitions of terms.

    Containers. Containers have been the predominant mode for international
    surface shipments since the early 1960s. DoD has been a leader in the use of
    container systems that are used for moving international freight in support of
    U.S. forces. DoD policy directs that U.S. forces rely on container resources
    and services furnished by the commercial transportation industry, insofar as
    such support is responsive to military requirements and is cost effective in the
    overall transportation system. Containers are the preferred mode of
    transportation by DoD for all items when available, feasible, economical, and
    operationally acceptable. The primary objective for containers is to provide a
    full container load for a single consignee or multiple consignees on the same
    base. Direct container shipments to a consignee minimize loss, damage, and
    pilferage to the cargo; reduce in-transit times; and improve the visibility and
    accountability of cargo in the Defense Transportation System.

    Container Agreement. The majority of containerized military cargo shipped to
    the theater moves under the provisions of the Military Traffic Management
    Command (MTMC) Oceanliner Contract. That contract provides rates, terms,
    and conditions for services required for movement of containerized cargo from
    origin to destination. The contract also authorizes a carrier to provide drayage
    or line-haul service for movement of containers from the carrier’s terminal to
    the location where the container is discharged to the consignee. The carrier
    shall also provide the MTMC organization responsible for each port where
    cargo is delivered with information such as date, time, and mode of
    commencement of drayage or line-haul from the discharge port to inland
    destination; the cargo identification number; and consignee identification.

    Detention Charges. Detention charges are paid to the carrier when the
    carrier’s container is returned on a date that is beyond the allowable free time.
    The total amount of free time allowed for each container is 7 calendar days.
    Time commences at the carrier’s terminal after the container has been
    discharged from the vessel, cleared for drayage or line-haul delivery by the
    local government (including customs), and the administrative contracting officer
    has been notified that the container is ready for drayage or line-haul services.
    Time ceases on the day the carrier is notified that the container is released for
    pickup or when the container is returned to the carrier, whichever occurs first.
    When the return of a container to the carrier is delayed by the Government
    beyond the allowable free time, the carrier may assess detention charges.
    However, each DoD Component is held accountable for operation and
    management decisions to incur, or not to incur, detention charges.

    MTMC Responsibilities. MTMC is the single agency manager for DoD
    traffic. MTMC is responsible for contracting for carrier services on the
    movement and documentation of surface container and breakbulk cargo from


                                         1
    U.S. ports of origin to overseas ports of destination. The 837th Transportation
    Battalion, a subordinate unit of MTMC, is the port manager for DoD-owned
    and DoD-leased containers that arrive in the theater. The 837th Transportation
    Battalion is responsible for coordinating the reception and staging of DoD cargo
    that arrives by surface transportation at any of the theater seaports. Containers
    arrive in the theater through the Port of Pusan and are staged at the container
    yards of the respective carriers. The 837th Transportation Battalion is
    responsible for coordinating port activities, clearing containers received for
    customs processing, and releasing the containers to the 25th Transportation
    Battalion Movement Control Teams (MCTs) for movement to consignees.

    U.S. Forces Korea Responsibilities. U.S. Forces Korea (USFK) has overall
    responsibility to provide for control and management of containers for shipment
    from the Port of Pusan through receipt by the consignees and release to carriers.
    Specifically, this responsibility falls under the 19th Theater Support Command.
    The 25th Transportation Battalion, a subordinate unit of the 19th Theater
    Support Command, functions as the USFK common-user land transportation
    manager within the theater for Component Services. The 25th Transportation
    Battalion uses MCTs to coordinate and track movement of commercial
    containers with the 837th Transportation Battalion and consignees. MCTs are
    responsible for contacting consignees about containers that are available for
    shipment from the Port of Pusan as well as determining a required delivery date
    for the consignee. In addition, the MCTs coordinate drayage and line-haul
    transportation with the 837th Transportation Battalion. The
    837th Transportation Battalion notifies carriers for delivery to the consignees.

    Consignees are required to report delivery times, offloading times, and empty
    container pickup times to the MCT. Further, the MCT is responsible for
    contacting the 837th Transportation Battalion for pickup of empty containers.
    The 837th Transportation Battalion notifies carriers that empty containers at the
    consignees are ready for pickup. The shipping cycle is complete when
    consignees receipt for containers, offload contents, and release empty containers
    back to the carrier.


Objective
    The overall audit objective was to assess the effectiveness of the DoD
    distribution and transportation system in supporting the DoD strategic goal of
    reducing logistics response time, as it relates to customers located outside the
    continental United States. The specific objective for this portion of the review
    was to assess movement of commercial containers in the theater. See Appendix
    A for discussion of the audit scope and methodology, review of the management
    control program, and prior coverage.




                                        2
           Coordinating and Tracking
           Container Movement
           USFK did not adequately coordinate and track the movement of
           commercial containers in the theater. That condition occurred because
           the 25th Transportation Battalion did not implement the USFK
           requirements or a system for coordinating and tracking movement of
           containers in the theater. Instead, the 25th Transportation Battalion
           relied on the 837th Transportation Battalion to perform those duties,
           even though the 837th Transportation Battalion was not responsible for
           performing the duties. As a result, adequate controls did not exist to
           prevent DoD from incurring about $742,000 in unnecessary detention
           charges for containers during a recent 2-year period.


USFK Requirements
    Requirements for coordinating and tracking commercial containers in Korea are
    discussed in USFK Regulation 55-355, “Korea Traffic Management,”
    June 3, 1992.

    Regulation Requirements. The USFK Regulation 55-355 states that the
    25th Transportation Battalion is designated as the single agency responsible for
    providing commercial line-haul transportation service. The 25th Transportation
    Battalion is required to coordinate inland transportation for cargo transiting
    water ports, manage detention of containers, and provide container management
    information to the 837th Transportation Battalion to ensure an accurate record of
    container movements and services are provided. Also, the 25th Transportation
    Battalion is required to maintain records on DoD-sponsored containers for
    inland movements and provide an audit trail for the 837th Transportation
    Battalion in the certification of detention and service charges within the theater.

    Coordinating and Tracking Procedures. The consignees, the MCTs, and the
    837th Transportation Battalion are responsible for keeping accurate records that
    show the date and time containers are scheduled to be received, actually
    received, reported available for pickup, and actually picked up. The
    837th Transportation Battalion is required to notify the 25th Transportation
    Battalion MCTs of containers that are available for delivery. Once notified, the
    MCTs coordinate container movement with the consignee by providing the
    scheduled container delivery date and requesting confirmation or rescheduling of
    the delivery date. The consignee then notifies the supporting MCT of the date
    and time of arrival of the container. After initiating the off-loading of the
    container, the consignee is required to notify the supporting MCT of the date
    and time the container will be empty and available for pickup. The MCT then
    informs the 837th Transportation Battalion that the container is available for
    pickup.




                                         3
Implementation of Regulation
    USFK did not adequately coordinate and track the movement of commercial
    containers in the theater because the 25th Transportation Battalion did not
    implement the USFK guidance or a system for coordinating and tracking
    movement of containers in the theater. Instead, the 25th Transportation
    Battalion relied on the 837th Transportation Battalion to perform those duties.

    USFK Requirements. The 25th Transportation Battalion did not implement
    USFK requirements for coordinating and tracking movement of containers in the
    theater. USFK Regulation 55-355 requires the MCTs to coordinate the arrival
    of containers with the 837th Transportation Battalion and consignees and to
    track movement of the containers. Consignees were required to notify the
    MCTs when the containers were empty and available for pickup. However,
    MCT activity at the water port consisted of arranging for transportation with
    commercial carriers and inspecting carrier vehicles for movement of breakbulk
    cargo but not containers. We reviewed USFK Regulation 55-355 and found that
    overall, the procedures outlined in the regulation appeared adequate, if
    implemented, for management of containers in the theater.

    Army Movement Management System-Redesign. The Army Movement
    Management System-Redesign system was the primary tool for container
    management and is cited in the USFK regulation. The 25th Transportation
    Battalion did not require the MCTs to use the system to coordinate arrival of
    containers with the 837th Transportation Battalion and consignees or to track the
    movement of the containers. However, the Army Movement Management
    System-Redesign is now a legacy system that will be replaced by the
    Transportation Coordinators-Automated Information for Movement System II,
    which is not yet available for use. In addition, the consignees did not notify the
    MCTs when containers were empty and available for pickup. Furthermore, the
    MCTs that supported the 837th Transportation Battalion were also not using the
    system for monitoring the free-time allowed for delivering and unloading
    containers and notifying the carrier when the container was empty.

    Reliance on 837th Transportation Battalion. The 25th Transportation
    Battalion relied on the 837th Transportation Battalion to perform the duties of
    coordinating and tracking commercial containers in the theater. The
    837th Transportation Battalion performed that effort for about 23 percent of the
    containers, even though the 837th Transportation Battalion was not responsible
    for performing the tasking under the USFK regulation.

    The 837th Transportation Battalion efforts included coordinating with
    consignees on container arrival, receipt, and pickup as well as contacting the
    carriers for container pickup. In addition, the 837th Transportation Battalion
    had a system in place that tracked the date the containers arrived at the terminal,
    the date the consignee requested delivery of the container, the date the container
    was delivered to the consignee, and the date that the consignee stated the
    container was empty. However, for the 1,945 containers that arrived at the
    water port during November and December 2000, records were maintained by
    the 837th Transportation Battalion for only 457 (23 percent).




                                         4
Detention Charges
    DoD incurred about $742,000 in unnecessary commercial container detention
    charges for a 2-year period ending December 2000. The detention charges
    stemmed from commercial carriers billing DoD through the
    837th Transportation Battalion for containers throughout the theater that were
    not returned within the 7-day free time.

    USFK Detention Charges. DoD Components and Defense agencies in the
    theater for which detention charges applied included the Army, Navy,
    Air Force, Army and Air Force Exchange Service, and Defense Commissary
    Agency. Of the $742,000 in detention charges incurred by USFK, about
    $652,000 applied to Army components. Those charges applied to numerous
    commercial containers delivered within the theater. We did not attempt to
    evaluate the status of those containers at all USFK locations. We did evaluate
    the status of containers delivered to the 702nd Main Support Battalion, located
    at Camp Casey, Korea, from March through July 2000. To illustrate problems
    with coordinating and tracking container movement, the status of the
    23 containers delivered to the 702nd Main Support Battalion is described below.

    Commercial Containers at the 702nd Maintenance Support Battalion. The
    837th Transportation Battalion records showed that 23 commercial containers
    were delivered to the Army consignee—the 702nd Main Support Battalion, A
    Company—from March through July 2000. The 23 containers had accumulated
    detention charges totaling about $69,000 as of September 30, 2000. We
    identified that 9 of the 23 containers for which the 25th Transportation Battalion
    and consignee could not account were still incurring detention charges. When
    we discussed the location of the containers with the 702nd Main Support
    Battalion during October 2000, personnel stated that they were unaware of any
    containers in their possession and of the ongoing detention charges on the
    containers. The nine containers had accumulated 1,437 days of detention
    charges as of September 30, 2000.

    USFK Actions. At our request in October 2000, USFK initiated an effort to
    locate the nine containers, shown on the 837th Transportation Battalion records,
    that were in the possession of the 702nd Main Support Battalion. We
    determined that as of December 30, 2000, all nine containers were reported
    empty and returned to the carrier. However, an additional 432 days of
    detention charges were incurred. Detention charges incurred from March
    through December 2000 for the 23 containers totaled about $82,000, of which
    about $62,000 was incurred for the 9 outstanding containers.




                                        5
  The table provides a summary of the accumulated and total detention days and
  charges that were incurred at the 702nd Main Support Battalion for the nine
  outstanding containers as of December 30, 2000.

            Detention Charges at the 702nd Main Support Battalion,
                         A Company, Camp Casey, Korea
                                                                                   Total
                      No. of Days                Additional Days to Total No. of Detention
                     Containers were   Date       Return Container    Detention Charges as
Container Detention in Detention as Container    after Audit Visit as Days as of    of
  No.     Start Date   of 9/30/00    was Empty        of 9/30/00      12/30/00   12/30/00

 01810     3/24/00        191       11/01/00            32             223        $ 7,763
 24443     3/24/00        191       11/13/00            44             235          8,183
 38938     3/24/00        191       11/13/00            44             235          8,183
 61493     3/24/00        191       11/13/00            44             235          8,183
 67455     3/24/00        191       11/13/00            44             235          8,183
 05885     3/29/00        186       11/01/00            32             218          7,588
 80588     4/12/00        176       12/05/00            62             238          5,215
 35949     8/03/00         60       12/05/00            65             125          4,333
 89498     8/03/00         60
                        ______      12/05/00            65
                                                       ____            125
                                                                      _____         4,333
                                                                                 _______
   Total                 1,437                         432            1,869       $61,964



  We also requested additional data from the 837th Transportation Battalion to
  review containers listed as outstanding, other than the 23 containers discussed
  above, and related detention charges for the 3-month period October through
  December 2000. Our review showed USFK took action to locate all of the
  outstanding containers and had those outstanding containers released to the
  carrier. Further, the carriers’ detention charges had ceased as of
  December 30, 2000. We commend USFK for its action to locate and return
  outstanding containers.
  Containers Not Shown on Records. In addition, we physically located five
  other containers at the 702nd Main Support Battalion, C Company. Personnel
  at the 702nd Main Support Battalion stated that the five containers were used for
  storage and had no knowledge of the length of time the containers had been in
  their possession. The five containers were not shown on 837th Transportation
  Battalion records.

  Commercial Warehouse for Inbound Cargo. To reduce potential detention
  charges, the 837th Transportation Battalion negotiated a contract for commercial
  warehouse space for storage of cargo. The contract was established to reduce
  potential detention charges that could occur for inbound cargo for which return
  of the container was delayed. A commercial warehouse company will remove
  cargo from the container and place the cargo in storage areas identified to the
  intended consignee. A commercial warehouse company will also palletize and
  wrap the cargo for safe transport, move it to a shipping dock, and load it onto a
  vehicle. The initial cost for this service is $140 per container for the first



                                        6
    30 days. We believe that this initiative by the 837th Transportation Battalion
    has merit in reducing potential detention charges.


Conclusion
    The 25th Transportation Battalion did not implement the USFK requirements or
    a system for coordinating and tracking movement of containers in the theater.
    As a result, adequate controls did not exist to prevent DoD from incurring about
    $742,000 in unnecessary detention charges for containers and unless promptly
    resolved will not preclude further detention charges in the future. Nevertheless,
    USFK needs to implement its regulation for coordinating and tracking
    commercial containers to preclude incurring detention charges in the future.


Recommendations, Management Comments, and Audit
  Response
    We recommend that the Commander, U.S. Forces Korea:

           1. Direct the implementation of procedures for coordinating and
    tracking commercial containers and coordinate container arrival, receipt,
    and pickup efforts with the Military Traffic Management Command.

           2. Direct the implementation of a container management system to
    coordinate and track movement of the commercial containers that arrive in
    the theater and to monitor for unnecessary detention charges.

    Management Comments. USFK concurred with Recommendations 1. and 2.,
    stating that it had initiated a complete review and update of USFK Regulation
    55-355, “Korea Traffic Management.” USFK further stated, in coordination
    with MTMC, USFK will conduct an analysis of the commercial container
    tracking process to clearly define its responsibilities and minimize DoD
    detention charges.

    MTMC concurred with Recommendation 1., stating that it will work with
    USFK in tracking of commercial containers.

            3. Initiate a search that will identify ownership of the five containers
    at the 702nd Main Support Battalion, C Company, Camp Casey. Return
    the containers to the proper owner and reach a settlement on any
    outstanding detention charges.

    Management Comments. The USFK concurred with the recommendation
    stating that the five containers were no longer present at the 702nd Maintenance
    Support Battalion, but that subsequent searches have identified commercial
    containers at other locations. USFK further stated that the containers found will
    be returned to the rightful owners and that any outstanding detention charges
    will be settled in a timely manner.



                                        7
Audit Response. Although USFK was unable to locate containers at the
702nd Main Support Battalion, USFK comments were responsive to the intent of
the recommendation.

We commend USFK and MTMC for their prompt and comprehensive actions
and their cooperation to resolve the tracking of commercial containers.




                                 8
Appendix A. Audit Process

Scope and Methodology
    Work Performed. We reviewed the DoD, USFK, and MTMC regulations
    concerning policies, responsibilities, and procedures for coordinating and
    tracking commercial containers in the theater. We performed audit work at the
    25th Transportation Battalion and the 837th Transportation Battalion. Our
    effort, for this segment of the overall audit, concentrated on coordinating and
    tracking commercial containers shipped to consignees within the theater from
    the Port of Pusan. We examined 837th Transportation Battalion records for
    coordinating and tracking the movement of containers in the theater and their
    schedules of billed detention charges for calendar years 1999 and 2000.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Coverage. In response to the Government Performance Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal, subordinate performance goal, and
    performance measures.

            FY 2001 DoD Corporate-Level Goal 2: Prepare now for an uncertain
    future by pursuing a focused modernization effort that maintains U.S. qualitative
    superiority in key warfighting capabilities. Transform the force by exploiting
    the Revolution in Military Affairs, and reengineer the Department to achieve a
    21st century infrastructure. (01-DoD-02).

            FY 2001 Subordinate Performance Goal 2.3: Streamline the DoD
    Infrastructure by redesigning the Department’s support structure and pursuing
    business practice reforms. (01-DoD-2.3).

           FY 2001 Performance Measure 2.3.4: Logistics Response Time.
           (01-DoD-2.3.4)

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following objectives and goals in the
    Logistics Functional Area:

           Objective: Reduce logistics cycle times.
           Goal: Implement Total Asset Visibility. (LOG-1.2)

    Audit Type, Dates, and Standards. We performed this economy and
    efficiency audit from April 2000 through March 2001, in accordance with
    auditing standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DoD. We did not use computer-
    processed data to perform this audit. We did our work in accordance with
    generally accepted Government auditing standards except that we were unable to




                                        9
    obtain an opinion on our system of quality control. The most recent external
    quality control review was withdrawn on March 15, 2001, and we will undergo
    a new review.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.


Management Control Program Review
    DoD Directive 5010.38, “Management Control Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that
    programs are operating as intended and to evaluate the adequacy of the controls.

    Adequacy of Management Controls. The conditions identified in this report
    are attributed to the lack of management controls over the commercial
    containers program in the theater. The recommendations in the finding for the
    Commander in Chief, USFK, to implement USFK Regulation 55-355 and to
    implement container management procedures will correct the conditions cited in
    the report and help ensure that unnecessary detention charges will not continue
    to occur.

    We identified material management control weaknesses for the
    25th Transportation Battalion as defined by DoD Directive 5010.40. The
    25th Transportation Battalion management controls for coordinating and
    tracking commercial container movement were not adequate because the
    Battalion did not implement USFK requirements or the Army standard system
    for coordinating and tracking movement of containers in the theater. A copy of
    the report will be provided to senior officials responsible management controls
    within the Army.

    Adequacy of Management’s Self-Evaluation. No assessment was made of the
    25th Transportation Battalion’s coordinating and tracking of commercial
    containers as an assessable unit. Therefore, we cannot reach a conclusion on
    management’s self-evaluation of this area.


Prior Coverage
    Unrestricted Inspector General, DoD, reports can be accessed over the Internet
    at http://www.dodig.osd.mil/audits/reports.

    Inspector General, DoD, Report No. 99-195, “Contract Actions for Leased
    Equipment,” June 30, 1999




                                       10
Appendix B. Glossary
Breakbulk Cargo - Loose, noncontainerized cargo.

Carrier - An individual, corporation, or public utility engaged in the business of
transporting goods by air, inland movement, rail, road, sea, or by a combination of
such modes.

Consignee - A person or organization to whom commodities are shipped.

Container - A truck trailer body that can be detached from the chassis for loading onto
a rail car or vessel or stacked in a container depot. A container can measure 20 to
53 feet in length, 8 feet inches in width, and 8 to 9 feet in height.

Drayage - The movement of a container between a carrier’s terminal at the port where
the container is loaded or off-loaded from the vessel, and another place within the
commercial zone or modified zone of that U.S. port city, or within a 10-mile radius of
the city limits of that foreign port city, by means other than the carrier’s principal
vessels.

Intermodal Container System - A type of international freight system that permits
movement of cargo containers interchangeably among air, highway, rail, and sea modes
of transportation through use of American National Standards Institute/International
Organization for Standardization containers, handling equipment, and line-haul assets.

Line-haul - The movement of a container between a carrier’s terminal at the port where
the container is loaded or off-loaded from the vessel, and another place outside the
commercial zone or modified zone of that U.S. port city, or beyond a 10-mile radius of
the city limits of that foreign port city, by means other than the carrier’s principal
vessels.




                                          11
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense (Acquisition, Technology, and Logistics)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Unified Commands
Commander in Chief, U.S. Pacific Command
   Commander, U.S. Forces Korea
U.S. Transportation Command
  Military Traffic Management Command

Non-Defense Federal Organizations
Office of Management and Budget




                                          12
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
Senate Subcommittee on Surface Transportation and Merchant Marines, Committee on
  Commerce, Science, Transportation
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Coast Guard and Maritime Transportation, Committee on
   Transportation and Infrastructure
House Subcommittee on Highways and Transit, Committee on Transportation and
   Infrastructure




                                       13
14
U.S. Forces Korea Comments




                 15
16
17
Audit Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant Inspector
General for Auditing, DoD, prepared this report. Personnel of the Office of the
Inspector General, DoD, who contributed to the report are listed below.

Shelton R. Young
Raymond D. Kidd
Robert M. Murrell
Keith A. Yancey
Celia J. Harrigan
Scott S. Cygan
Sharon R. Lindsey
